NUMBER:
IN THE SUPREME COURT OF THE UNITED STATES
PROMILA RAJPUT,

Petitioner

Vei'sus
I. TIFFANY TERRELL,
i. 9+ million Virginia residents & businesses
ii. In re: Promila Rajput
iii. In re: Promila Rajput
iv. UMFS
v. Etal
2. SHARON WAKE,
3. RONALD IRVING FOGG,
Respondents
PROOF OF SERVICE
I, Promila Rajput, declare that on February 27, 2021, pursuant to US Supreme
Court Rule 29, enclosed PETITION for WRIT OF CERTIORARI is being delivered UPON:
1. CLERK of court by USPS priority mail at 1 First Street, N.E.., Washington, DC 20543.
2. SERVICE TO RESPONDENTS Tiffany Terrell, Sharon Wake, and renewed
respondents horn Arlington, Fredericksburg, Henrico, Richmond to counsel Samuel
Towell, Dy Attorney General, Civil Litigation, Virginia, via service@nnp state va ns by
Ms. Patricia Tyler- Paralegal Senior- Expert/Manager, Office of AG, 202 North 9tlr
Street, Richmond, VA 23219, because AG’s office is not receiving services for COVID.
3. SERVICE TO RESPONDENT Ronald Fogg by Chesterfield Sheriff’.
Respectfully submitted on February 27, 2021 by
Promila Rajput
Self-represented Petitioner, Cell: 804 968 9026
Add: 3404 S Street, Richmond, VA 23223
Email: momila.raimit, 11 @gmail. com

